Nos. 20-37 & 20-38

In the Supreme Court of the United States
————
NORRIS COCHRAN, ACTING SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL.
Petitioners,
v.
CHARLES GRESHAM, et al.,
Respondents.
————
STATE OF ARKANSAS,
Petitioner,
v.
CHARLES GRESHAM, et al.,
Respondents.
————
On Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
————
ARKANSAS’S OPPOSITION TO THE FEDERAL
GOVERNMENT’S MOTION TO VACATE
————

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER STEINBERG
DYLAN L. JACOBS
Assistant Solicitors General

Counsel for Petitioner
February 22, 2021
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

Petitioner the State of Arkansas respectfully opposes
the federal parties’ motion to vacate the judgments
of the court of appeals. The “changed circumstances”
the Government cites, Mot. 6—namely its proposals
to revoke the waivers at issue here—do not moot
these cases. Nor, given the Government’s feeble
justification for beginning that process, are these cases
even likely to become moot. And the central question
in these cases—what Medicaid’s objectives are—will
likely return to this Court in litigation over the
revocations the Government claims make review of
that question unwarranted.
This Court granted certiorari in these cases to decide
whether the Secretary of Health and Human Services
reasonably determined that two States’ experimental
community-engagement requirements, Arkansas’s and
New Hampshire’s, were likely to promote the objectives of Medicaid, after the court of appeals below
held that health care coverage alone, not health, was
Medicaid’s overriding objective. A decision on whether
that holding is correct remains as pressing today as
when this Court granted certiorari.
First, however it is read, the Government’s proposal
is without precedent. The Government asks the Court
to vacate the court of appeals’ judgments and remand
with instructions to remand to the agency. Yet if
“remand” means what it ordinarily does, that was the
court of appeals’ judgment. See Pet.App. 24a (district
court order, vacating and remanding); Pet.App. 20a
(affirming district court). Thus, if that’s what the
Government seeks, its motion is really just a request
that the Court vacate the court of appeals’ opinion.
But “[t]his Court reviews judgments, not statements
in opinions.” California v. Rooney, 483 U.S. 307, 311
(1987) (per curiam). And the Government cannot ask

2
the Court to vacate an opinion that “threatens to
significantly curtail [its] authority,” Mot. 6-7, unless
it is also willing to seek relief from that opinion’s
accompanying judgment.
Alternatively, the Government’s motion might be
read as a request to remand to the agency to consider
revocation. But that is not what remands to agencies
do; courts remand matters to agencies for them to
consider new action, not to ponder rescinding a challenged one. And though the Government suggests
such a remand would “clear the path” for it to revoke
its approvals, Mot. 7, that path is clear already;
indeed, the Government has already started down it.
Second, these cases are not moot. The Government
notes that it has made a preliminary determination,
subject to the States’ comment and a subsequent
hearing, that “allowing” their community-engagement
requirements to “take effect” would not promote
the objectives of Medicaid in light of the pandemic,
Mot. 5—although a statute prevents them from going
into effect during the pandemic. Mot. 3-4. Of course,
preliminary proposals to rescind agency action do not
moot challenges to or defenses of it. See Nat’l Ass’n of
Mfrs. v. Dep’t of Def., 138 S. Ct. 617, 627 n.5 (2018)
(“Because the WOTUS Rule remains on the books for
now, the parties retain a concrete interest in the
outcome of this litigation.” (internal quotation marks
omitted)). Indeed, this Court has traditionally refused
to even hold briefing in abeyance pending a proposed
rescission of a challenged agency action, much less
vacate a lower court’s judgment in light of one. See
Nat’l Ass’n of Mfrs. v. Dep’t of Def., 137 S. Ct. 1452
(2017).
Third, these cases are not likely to become moot.
Even assuming the Government ultimately decides to

3
revoke its approvals of the States’ community-engagement requirements, that will not moot these case. To
the contrary, the Government’s proposed revocations
are vulnerable on both substantive and procedural
grounds. And if the revocations were successfully
challenged—or are under challenge, as will likely be
true well after the conclusion of this Term—whether
the States’ requirements were permissibly approved in
the first place would remain a live issue.
The Government’s proposed revocations are substantively vulnerable because the reason the Government
has given for its proposed revocations—the pandemic—
is fully addressed by a COVID-response statute that
bars the States’ requirements from taking effect during the pandemic. Mot. 3-4. The Government may
fear the pandemic’s aftereffects on “economic opportunities’ and “access to transportation,” Mot. 5, which
it suggests might make compliance with communityengagement requirements difficult. But the time to
assess the pandemic’s aftereffects on the post-pandemic economy is post-pandemic, not now, especially
given that the statute barring implementation during
the pandemic makes any immediate determination
entirely unnecessary.
The Government’s proposed revocations are procedurally vulnerable because, if they became effective
under the timetable the Government proposes, they
would breach an agreement that the Centers for
Medicare and Medicaid Services executed with Arkansas
just last month. In January, CMS agreed any revocation would not take effect until nine months after the
agency gave Arkansas notice of its proposed revocation,
App. 4a, and Arkansas agreed that amount of notice
was adequate. App. 2a. The Government has purported
to rescind that agreement in order to hasten its

4
premature revocations. Letter from Elizabeth Richter,
Acting Adm’r, Ctrs. for Medicare & Medicaid Servs., to
Dawn Stehle, Dep. Dir. for Medicaid, Ark. Dep’t
of Hum. Servs. 2 (Feb. 12, 2021).1 But while the
Government might—subject to APA review—rescind
its own procedural rule, it cannot unilaterally rescind
a bilateral agreement.
Fourth, the Government’s proposed revocations do
not even rise to the level of the sorts of sub-mootness
changed circumstances for which this Court has
granted vacatur. In the cases the Government cites,
Mot. 6, some post-cert development, not just a potential
one, injected a new question into the case that potentially obviated resolving the question presented and
that the Court declined to resolve in the first instance.
In Madison County v. Oneida Indian Nation of New
York, after the Court granted certiorari to resolve a
question of tribal sovereign immunity, the tribe appeared
to waive its immunity. 562 U.S. 42, 42 (2011). As the
scope of the waiver was unclear, the Court vacated and
remanded for the court of appeals to decide its scope.
Id. at 43. In Department of Justice v. City of Chicago,
537 U.S. 1229 (2003), after the Court granted certiorari
on the scope of a FOIA exemption, Congress enacted
an appropriations rider that prohibited agency spending on disclosing the materials at issue. See City of
Chicago v. Dep’t of Treasury, 384 F.3d 429, 431 (7th
Cir. 2004). The Court, accordingly, vacated and remanded
for the court of appeals to decide the rider’s effect.
Dep’t of Justice, 537 U.S. at 1229.
Nothing like that has occurred here. To start, as of
yet there is no changed circumstance at all—only a
1

https://www.medicaid.gov/medicaid/section-1115-demonstrat
ions/downloads/ar-cms-ltr-state-02122021.pdf.

5
proposed revocation, like the proposed rescission of the
WOTUS rule the Court deemed insufficient to even
hold briefing in abeyance in National Association of
Manufacturers. But even if the proposed revocations
mature into final agency action, they wouldn’t present
any new question for the court of appeals to consider.
Rather, the revocations would be reviewed in separate
APA actions brought by the States in their regional
Circuits. If those challenges were successful, the court
of appeals would be precisely where it started, presumably reinstate its vacated judgment, and present
anew the same question on which this Court has
already granted certiorari. The Government’s proposed
revocations might ultimately moot these cases if they
become final and are upheld, but unless and until they
are they do not justify vacatur.2
Fifth, and perhaps most critically, merely vacating
the court of appeals’ judgments with instructions to
remand to the agency would seemingly leave the district
court’s judgments vacating the agency’s approvals in
place, potentially making any challenge to its proposed
revocations futile and the district court’s judgments
unreviewable. It would also deprive the parties and
lower courts of critical guidance on what Medicaid’s
objectives are. The Government’s proposed revocation
says it believes community-engagement requirements
would not promote Medicaid’s objectives, Mot. 5, a
yet does not identify those objectives. A holding from
this Court on whether the court of appeals’ interpretation of Medicaid’s objectives, or that of the prior
2

This might suggest that an abeyance pending the Government’s
decisions on revocation and any challenges thereto would be a
wiser course. But in Arkansas’s case, that could preclude review
of the decision below because Arkansas’s approval expires on
December 31.

6
administration, was correct would assist the Government
in deciding whether revocation is appropriate; assist
lower courts in deciding whether any revocations the
Government ultimately issues are valid; and likely
avoid a circuit split over those revocations’ validity, as
the Government has proposed to potentially revoke
waivers in as many as eleven States in eight different
regional Circuits. See Mot. 4; Gov’t Br. 15 n.6.
Sixth, and lastly, Arkansas does not oppose the
Government’s request to hold briefing in abeyance and
remove the cases from the March argument calendar
pending a ruling on the Government’s motion, provided
that if the Court denies vacatur, it hears argument
this Term. Cf. n.2, supra.
CONCLUSION
This Court should deny the Government’s motion for
vacatur and remand.
Respectfully submitted,

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER STEINBERG
DYLAN L. JACOBS
Assistant Solicitors General

Counsel for Petitioner

February 22, 2021

APPENDIX

1a
APPENDIX
[LOGO]
CMS
Center for Medicare & Medicaid Services
Office of the Administrator
DEPARTMENT OF HEALTH & HUMAN SERVICES
Centers for Medicare & Medicaid Services
7500 Security Boulevard
Baltimore, Maryland 21244-1850
January 4, 2021
Dawn Stehle
Deputy Director for Health & Medicaid
Arkansas Department of Human Services
112 West 8th Street, Slot S401
Little Rock, AR 72201-4608
Dear Ms. Stehle:
Your state currently operates at least one Medicaid
section 1115 demonstration. These demonstrations have
proven to be a cornerstone of state innovation from
which new best practices can emerge and next generation program design be fostered. They represent one of
the most critical elements of our commitment to state
flexibility and building a state and federal partnership
centered on accountability and results.
By their nature, section 1115 demonstrations represent
a contract between the state and federal government,
governed by established terms and conditions and only
approved after a determination by the Secretary of the
Department of Health and Human Services (HHS)
that such a demonstration would advance the objectives of the Medicaid program. In the rare event that
CMS makes a determination that it must terminate,

2a
amend, or withdraw waiver authority, the standard
terms and conditions in each demonstration generally
provide for a process in which CMS will notify the
state in writing and afford the state an opportunity to
request a hearing prior to effective date.
Your terms and conditions describe this process at
only a high level, without describing the advance notice
or the specific timeline in which such an opportunity
to be heard would occur. While a decision to terminate
or withdraw waiver authority would likely only be
made as a last measure, states have the right to due
process over that decision as well as adequate notice
to prepare to transition their programs to a new state
of authority. That is why I am sending you today a
letter of agreement outlining additional details of the
process, which CMS commits to applying prior to the
effective date of any amendment or withdrawal of a
demonstration.
By signing the letter of agreement, you are agreeing to
abide by this process should CMS in the future take
any such relevant action against an existing 1115
demonstration operating in your state. If you would
like to commit to adhering to this process, I ask
that you return this agreement, signed by the state
Medicaid director or appropriate authority, as soon as
possible. Please sent to me directly or email the signed
agreement to 1115demorequests@cms.hhs.gov.
Sincerely,
/s/ Seema Verma
Seema Verma
Enclosure

3a
CENTERS FOR MEDICARE &
MEDICAID SERVICES
PROCEDURES FOR WITHDRAWING OR
MODIFYING A SECTION 1115 DEMONSTRATION
CMS regulations state that each Section 1115 demonstration’s Terms and Conditions “will detail any notice
and appeal rights for the State for a termination,
suspension or withdrawal of waivers or expenditure
authorities.” 42 CFR § 431.420(d)(3). While the precise
language in each demonstration’s Terms and Conditions
varies slightly, these documents set forth only a
general outline of the procedure to apply, for example:
“CMS will promptly notify the State in writing of
the determination and the reasons for the amendment
and withdrawal, together with the effective date, and
afford the State an opportunity to request a hearing to
challenge CMS’ determination prior to the effective
date.” This letter agreement sets forth the procedures
that CMS commits to applying prior to the effective
date of any amendment or withdrawal of a demonstration.
If CMS determines that it will either (1) suspend or
terminate a demonstration in whole or in part because
the State has materially failed to comply with the
terms of the demonstration project, or (2) withdraw
waivers or expenditure authorities based on a finding
that the demonstration project is not likely to achieve
the statutory purposes, see 42 CFR § 431.420(d)(1)–(2),
CMS will promptly notify the affected State in writing
of its determination and the reasons for the suspension,
termination, amendment, or withdrawal. CMS will
also provide an effective date for its determination and
a schedule for a hearing to challenge CMS’ determination.
In order to ensure that affected states have adequate
notice and opportunity to be heard, CMS shall make

4a
the effective date for its determination no sooner than
9 months after the date on which CMS transmits its
determination to the affected State. The hearing and
associated briefing shall adhere to the following
schedule:
• Within 15 days of the date of CMS’ determination, the affected State shall provide notice in
writing to CMS that it disagrees with CMS’
determination and plans to invoke its right to a
hearing as part of a preliminary appeal.
• Within 90 days of the date of CMS’ determination, the affected State shall submit a written
brief to CMS outlining the bases for its
disagreement.
• Within 90 days of the date the State submits
its written brief, CMS shall send a written
response to the affected State responding to the
major arguments raised by the State.
• Within 60 days of the date that CMS sends
its written response, the State shall submit
a written rebuttal responding to the major
arguments raised by CMS.
• Within 45 days of the date that the State sends
its written rebuttal, CMS shall hold a hearing
and provide the State with an opportunity to be
heard regarding its disagreement with CMS’
determination.
• Following the hearing, CMS shall issue a
written decision either modifying or finalizing
its initial determination.
The decision resulting from this preliminary appeals
process shall be appealable to the Departmental Appeals
Board using the procedures at 45 CFR Part 16. See

5a
Appendix A to 45 CFR Part 16, C. (b). Monetary
damages cannot remedy a breach of this preliminary
appeals process. Any breach constitutes irreparable
harm and final agency action.
The preliminary appeals process set forth above
applies to the following demonstrations:
Arkansas Tax Equity & Fiscal Responsibility
Act (TEFRA-like)
Arkansas Works
/s/ Dawn Stehle
Dawn Stehle
Deputy Director for Health & Medicaid
Arkansas Department of Human Services
Division of Health and Medicaid Services
State of Arkansas
Date: January 13, 2021
/s/ Seema Verma
Seema Verma
Administrator
Centers for Medicare & Medicaid Services
U.S. Department of Health & Human Services
Date: January 4, 2021

